CERTIFICATE OF SERVICE
No. 20-1263
GIANINNA GALLARDO, AN INCAPACITATED PERSON, BY
AND THROUGH HER PARENTS AND CO-GUARDIANS PILAR
VASSALLO AND WALTER GALLARDO,
v.
SIMONE MARSTILLER, IN HER OFFICIAL CAPACITY AS
SECRETARY OF THE FLORIDA AGENCY FOR HEALTH
CARE ADMINISTRATION,

Petitioner,

Respondent.

I, Bryan S. Gowdy, counsel for Petitioner, hereby certify that 1 copy of the
foregoing Petitioner’s Reply in Gianinna Gallardo, an incapacitated person, by and
through her parents and co-guardians Pilar Vassallo and Walter Gallardo v. Simone
Marstiller, in her official capacity as Secretary of the Florida Agency for Health Care
Administration, was sent via Next Day Service to the U.S. Supreme Court, and via email service to the following parties listed below, this 7th day of June, 2021:
ASHLEY MOODY
Attorney General of Florida
JAMES H. PERVICAL
Deputy Attorney General
*Counsel of Record
KEVIN A. GOLEMBIEWSKI
Deputy Solicitor General
Office of the Attorney General
The Capitol – PL-01
Tallahassee, FL 32399
(850) 414-3300
james.percival@myfloridalegal.com
citizenservices@myfloridalegal.com
citizenservices@myfloridalegal.com
TRACY COOPER GEORGE
Chief Appellate Counsel
Florida Agency for Health Care Administration
2727 Mahan Drive
Tallahassee, FL 32308
(850) 412-3637
tracy.george@ahca.myflorida.com

2
All parties required to be served have been served.
I further declare under penalty of perjury that the foregoing is true and co
This Certificate is executed on June 7, 2021.

Coun

for Petitioner
P.A.
865 May Sti·eet
JACKSONVILLE, FL 32204
(904) 350-007 5
bgowdy@appellate-firm.com
CREED & GOWDY,

